Report No. D2007-102      May 22, 2007




  Air Force Host and Tenant Agreements
    Between the 50th Space Wing, the
  Joint National Integration Center, and
                  Tenants
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

AFI                   Air Force Instruction
FAR                   Federal Acquisition Regulation
JFCC                  Joint Functional Component Command
JNIC                  Joint National Integration Center
JTAAS                 Joint National Integration Center Technical Advisory and
                         Assistance Services
LAN                   Local Area Network
R&D                   Research and Development
U.S.C.                United States Code
                             INSPECTOR GENERAL

                            DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON, VIRGINIA 22202-4704





                                                                             May 22, 2007

MEMORANDUM FOR DIRECTOR, MISSILE DEFENSE AGENCY
               COMMANDER, 50TH SPACE WING, AIR FORCE SPACE
                 COMMAND

SUBJECT:	 Report on Air Force Host and Tenant Agreements Between the 50th Space
          Wing, the Joint National Integration Center, and Tenants (Report
          No. D-2007-102)


        We are providing this report for review and comment. The 50th Space Wing did
not respond to the draft report; however, we considered comments from the Missile
Defense Agency when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
As a result of management comments we revised Recommendation I. The Missile
Defense Agency comments were partially responsive. We request additional comments
for recommendations I and 2.a, 2.b, and 2.c. We request the Missile Defense Agency
and the 50th Space Wing provide comments on the Recommendations by July 23, 2007.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

         We appreciate the courtesies extended to the staff. Questions should be directed to
Amy Frontz at (303) 676-7392 (DSN 926-7392) or Mr. John Furutani at (303) 676-7513
(DSN 926-7513). See Appendix C for the report distribution list. The team members are
listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                         ~~~-
                                         Pat . Granetto, CPA

                                 Assistant I1 pector General & Director

                                  Defense Financial Auditing Service

                 Department of Defense Office of Inspector General
Report No. D-2007-102                                                         May 22, 2007
   (Project No. D2006-D000FD-0064.000)

       Air Force Host and Tenant Agreements Between the 50th Space 

          Wing, the Joint National Integration Center, and Tenants 


                                   Executive Summary 


Who Should Read This Report and Why? DoD and Air Force staff involved with host
and tenant support agreements are the intended audience for this report. It discusses the
appropriateness of the cost allocation methodologies the Joint National Integration Center
and the 50th Space Wing used to assess tenants for support costs.

Background. The 50th Space Wing of the Air Force Space Command operates Schriever
Air Force Base in Colorado Springs, Colorado. The 50th Space Wing makes available by
permit two buildings on the base’s real property records, 720 and 730, to the Joint National
Integration Center, a Component of the Missile Defense Agency. The Joint National
Integration Center resides as a tenant, serves as a host to other tenants, and contracts for
services. As part of its host duties, the Joint National Integration Center assesses charges for
services provided based on the amount of square footage each tenant occupies in the two
buildings. The Joint National Integration Center estimates and collects these charges
(reimbursements) in advance through military interdepartmental purchase requests.

Results. In assessing their tenants’ operating and support charges, the Joint National
Integration Center and the 50th Space Wing used cost allocation methodologies that did not
comply with DoD guidance on what constitutes reimbursable costs under support
agreements. The Joint National Integration Center was also assessing nonreimbursable
charges and miscalculating utility charges. As a result, the Joint National Integration Center
and other tenants paid an inappropriate share of operations and support costs—amounting to
more than $350,000—from February 2005 to January 2006. The Joint National Integration
Center and the 50th Space Wing need to review their methodologies to ensure they
accurately reflect the costs of support provided and comply with DoD Instruction 4000.19.
In addition, the Joint National Integration Center needs to review its procedures for
determining which costs are properly reimbursable (incremental direct costs) from tenants
and correct the utility calculation used to allocate costs to the Joint Functional Component
Command. Finally, the Missile Defense Agency should review charges paid by tenants in
previous years to verify that it did not collect more than the actual expenses for each fiscal
year. If the Missile Defense Agency collected more than actual expenses, it should either
refund excess funds to the tenants or deposit those funds in the U.S. Treasury through
miscellaneous receipts and, if it lacks sufficient budget authority, it should report an
Antideficiency Act violation.

Management Comments and Audit Response. The Executive Director, Missile Defense
Agency concurred with one of the recommendations and partially concurred with three
recommendations. The Executive Director, MDA, did not concur that the cost allocation
methodology used by JNIC resulted in fund augmentation. She stated MDA was operating
under the statutory authority of the Economy Act which allows for estimates. We agree
estimates may be used; however, the Economy Act requires that estimates be adjusted to
reflect actual costs. In addition, DoD policy requires that intragovernmental support
agreements adjust the estimated amounts paid in advance by the receiving party. JNIC did
not attempt to determine if funds were collected in excess of actual direct costs.

The Executive Director stated the cost methodology used by JNIC is consistent with DoD
guidance and all reimbursable costs identified in the agreements are incremental direct costs.
We disagree that all costs had a direct link to the tenants. We also disagree that JNIC should
include the common-use infrastructure as part of the square footage when multiplying it by
the rate per square foot to arrive at the total utility cost to the tenant.

We request the Executive Director, Missile Defense Agency reconsider her position, and
50th Space Wing Commander provide comments on the final report by July 23, 2007. See
the Finding section of the report for a discussion of management comments, and the
Management Comments section of the report for the complete text of the comments.




                                              ii
Table of Contents 


Executive Summary                                                          i


Background                                                                 1


Objectives                                                                 1


Finding 

      Cost Allocation Methodologies and Assessment of Host and Tenant 

         Charges                                                           2


Appendixes
      A. Scope and Methodology                                            13 

      B. Overcharges                                                      14 

      C. Report Distribution                                              16 


Management Comments
      Missile Defense Agency                                              19 

Background
           This report discusses the cost allocation methodologies used by the Joint National
           Integration Center (JNIC) and the 50th Space Wing to assess operating and
           support charges to tenants, and questions the appropriateness of specific charges.

           Owner-Host-Tenant Relationship. The 50th Space Wing, Air Force Space
           Command operates Schriever Air Force Base in Colorado Springs, Colorado. The
           50th Space Wing makes available by permit two buildings on Schriever’s real
           property records, 720 and 730, to JNIC, a Component of the Missile Defense
           Agency. 1 JNIC resides as a tenant, serves as a host to other tenants, and contracts
           for services necessary to carry out its mission and perform interior building
           operations and maintenance. JNIC serves as host to the following tenants: the
           Space Innovation & Development Center, the Center for Research Support,
           Cheyenne Mountain Training Systems, the Air Force Operational Test and
           Evaluation Center, and the Joint Functional Component Command (JFCC).

           Costs Incurred and Assessed. The 50th Space Wing provides services to the
           occupants of buildings 720 and 730 as defined in a support agreement with JNIC.
           These services cover maintenance of grounds and building exteriors and provision
           of utilities, refuse collection, and communications services. JNIC is responsible
           for operation and maintenance costs of building interiors. JNIC considers
           utilities, refuse collection, and communications services reimbursable by tenants.
           These reimbursable services are calculated and allocated based on square footage
           basis. Before each fiscal year begins, tenants provide funds through military
           interdepartmental purchase requests to JNIC for the charges assessed. 2 JNIC also
           charges some tenants for certain services based on use, such as copies exceeding a
           base amount, local area network (LAN) lines, and JNIC Technical Advisory and
           Assistance Services (JTAAS).


Objectives
           Our audit objective was to determine the extent to which charges assessed under
           host and tenant agreements involving the Air Force as either host or tenant
           complied with DoD guidelines. However, the complexity of the issues identified
           at Schriever Air Force Base led us to reduce our scope to include only that
           installation. We looked at the charges assessed under host and tenant agreements
           between the 50th Space Wing, JNIC, and tenants. Although we announced our
           intention to review the management internal control program as it related to the
           overall objective, we discontinued the review when we limited the scope to
           Schriever Air Force Base. See Appendix A for a discussion of our scope and
           methodology and Appendix B for a discussion of potential overcharges.


1
    By law, only military Services may own real property; therefore, DoD agencies must use real property
    assets through a permit, lease, or support agreement.
2
    JNIC uses “reimbursement” as an equivalent term for a “charge”—a cost incurred and passed on.



                                                      1

            Cost Allocation Methodologies and
            Assessment of Host and Tenant Charges
            JNIC and the 50th Space Wing methodologies did not comply with DoD
            guidance for determining and allocating reimbursable support costs. JNIC
            charged tenants for support costs that could not be attributed to or
            influenced by the tenants. Tenants were improperly charged because
            JNIC:

               •   charged them for nonreimbursable costs,

               •   used an inappropriate methodology to assess specific charges, and

               •   incorrectly calculated reimbursable charges.

            As a result, tenants were overcharged by $313,761 from February 1, 2005,
            to January 31, 2006, for support costs not measurable and directly
            attributable. During the same period, a tenant was overcharged $36,975
            because of a utility miscalculation. Consequently, if JNIC used the same
            methodology to assess charges to tenants in prior years, the Missile
            Defense Agency, the JNIC parent organization, through reimbursement
            collections by JNIC, may have augmented its research and development
            (R&D) appropriation, possibly resulting in an Antideficiency Act
            violation.


Criteria
     DoD Instruction. DoD Instruction 4000.19, “Interservice and Intergovernmental
     Support,” August 9, 1995, prescribes the nature and details of various support
     agreements among Military Services, DoD Components, other Federal agencies,
     and non-Federal entities. The key requirement is to identify and charge only for
     incremental direct costs associated with the services obtained under the
     agreement.

     Air Force Instruction (AFI). AFI 25-201, “Support Agreement Procedures,”
     May 1, 2005, is the Air Force policy implementing the requirements of DoD
     Instruction 4000.19. AFI 25-201 provides detailed guidance on agreements,
     functional area responsibilities, documentation, and processing and review
     procedures.

     AFI 65-601, volume 1, chapter 7, “Support Guidance,” March 3, 2005, provides
     financial management guidance for planning and executing support transactions,
     including respective roles and tasks, between Component organizations of the Air
     Force and other Air Force activities, Component organizations of other DoD
     agencies, and Component organizations of non-DoD departments and agencies.




                                         2

Reimbursable Costs Charged to Tenants
           The cost allocation methodology JNIC used to calculate tenant charges is not
           compliant with DoD guidance on what constitutes reimbursable costs under
           support agreements. The underlying assumption for JNIC cost methodology is
           that all costs billed under the contract are a direct cost to JNIC and are thus used
           to determine reimbursable costs assessed to tenants. 3 This assumption is
           unwarranted because all these costs cannot be directly attributed to, or influenced
           by, tenants and thus are not “incremental direct costs” as defined in DoD
           guidance. As a result, JNIC overcharged tenants $313,761 for the period
           February 1, 2005, to January 31, 2006. The calculations showing the
           nonreimbursable costs are summarized in Appendix B.

           DoD Instruction 4000.19 identifies reimbursable support as that which:

                    . . . increases the support supplier’s direct costs (i.e. incremental direct costs).
                    Costs associated with common use infrastructure are nonreimbursable, except
                    for support provided solely for the benefit of one or more tenants. Support costs
                    that are charged to a support receiver (i.e. reimbursable cost) must be
                    measurable and directly attributable to the receiver.

           An example of an incremental direct cost is the cost for electricity used by tenants
           leasing and occupying host-office space.

           DoD Instruction 4000.19 also provides the following guidance:

                    . . . whether support service is reimbursable must be based on local conditions in
                    accordance with subsection 4.6. of the main body of this Instruction. Recurring
                    interservice and intragovernmental support is reimbursable to the extent that
                    provision of the specified support to a receiver increases the support supplier’s
                    direct costs and that cost is measurable and attributable to the support receiver.
                    Support services that are operated for the supplier’s benefit and that also benefit
                    other activities without increasing the cost to the supplier are not reimbursable.

           JNIC Cost Basis. JNIC had an R&D contract with Northrop Grumman Mission
           Systems (contractor) from February 1, 2005, through January 31, 2006. As part
           of the contract, JNIC created an environmental task order directing the contractor
           to provide services and to operate and maintain buildings 720 and 730. Task
           order costs are defined in the task order elements. The task order elements
           follow:

               •    task order administration,

               •    interior operation and maintenance,

               •    reproduction services,


3
    Federal Acquisition Regulation (FAR), Part 2, Subpart 2.1, “Definitions,” February 2, 2006, defines a
    direct cost as “any cost that is identified specifically with a particular final cost objective.”



                                                        3

       •   facility engineering (renovation planning and designing),

       •   facility services,

       •   mail distribution,

       •   custodial services,

       •   supplies, and

       •   property management.

    In addition to payment for the services mentioned above, an award fee for
    performance for elements containing labor costs (facility engineering, for
    example) was included as part of the estimated total cost. We identified elements
    currently used for tenant-related costs that are nonreimbursable and should not be
    charged to tenants. These elements are discussed below.

            Administration. This task element included requirements such as
    program management, schedule management, and delivery order coordination.
    These subtasks are general requirements of the contractor and would be incurred
    by JNIC regardless of tenant presence; therefore, they did not meet the definition
    of incremental direct costs. The entire cost associated with the task was not
    specifically linked to one or more tenants. Therefore, administration costs are not
    incremental direct costs suitable for reimbursement.

            Award Fee. JNIC applied a 12-percent award fee to the labor cost for
    each task order element in calculating the reimbursement basis for tenants. This
    practice was not consistent with DoD guidance because the award fee was not
    always tied to a tenant-specific activity, and award fees are associated with
    subtasks not directly linked to tenant service needs. Tenants could not control or
    influence the award-fee costs, nor did the award fee benefit them directly; thus,
    the award fee was not an incremental direct cost suitable for reimbursement.

Methodologies for Charging Tenants
    JNIC and the 50th Space Wing used square footage as a basis to charge tenants
    for services and other costs although other bases were more appropriate and more
    accurately reflected costs associated with tenant activity. The total operating and
    support costs being shared by JNIC and its tenants for buildings 720 and 730 were
    $29,286,443 (JNIC pays $27,554,525 and tenants pay $1,731,918). Figure 1
    shows the cost allocation between JNIC and building tenants, and Table 1
    identifies the cost allocation methodologies used by the 50th Space Wing and
    JNIC to charge their tenants.




                                         4

           Figure 1. Cost Allocation Between JNIC and Building Tenants



                           Table 1. How Host Determined Tenant Charges
                                                             Host
                           Charge            50th Space Wing         JNIC
             Utilities
               Water                                    Square footage             Square footage
               Sewer                                    Square footage             Square footage
               Electric                                 Square footage             Square footage
               Gas                                      Square footage             Square footage
             Communication services
               Cellular service                             Cell phone              Cell phone
               Local dial tone                                Lines               Square footage
               Cable television                             Receivers             Square footage
             Refuse collection                              Containers            Square footage
             Environmental task order 4                                           Square footage
             JNIC communication costs                                             Square footage
             LAN                                                                  Number of units
             JTAAS                                                               Number of support
                                                                                    personnel

           Because they were assessed charges based on square footage, some tenants were
           paying an inappropriate share for these services. Until JNIC and the 50th Space
           Wing use appropriate methodologies to determine costs, tenants will continue to
           pay an inappropriate share.
           JNIC and the 50th Space Wing could use alternative data to identify and track
           tenant-related costs. JNIC could use the database maintained by the operation
           and maintenance subcontractor, Lockheed Martin, which tracks activity by action
           requests. These requests contain data fields such as submitter and submitter
           location and can identify direct, measurable costs tied to tenants. The data fields
           can also be used to estimate a percentage of total labor cost related to tenant
           activity when such estimates are relevant and desirable.

           The inappropriate cost assumptions and allocations include:

               •	 Mail Distribution. The category “other direct costs/material” (for
                  example, stamps) was a reimbursable cost charged to tenants based on
                  square footage with the assumption that each organization used the same

4
    The environmental task order includes the following task elements: task order administration, interior
    operations and maintenance, reproduction services, facility engineering, facility services, mail
    distribution, custodial services, supplies, and property management.



                                                       5

           amount of postage. However, JNIC kept a log of the amount of postage
           used by each tenant. Even though JNIC had data identifying the actual
           direct costs of mail distribution used by each tenant, it used square footage
           as the methodology to allocate and assess these costs.

       •	 Reproduction Services. JNIC calculated the cost of reproduction
          services as labor plus 50 percent of the cost of white copy paper. This
          cost was then allocated to tenants by square footage. The copy center had
          the ability to track the actual copying done for each tenant using a job
          request form. The form provided type and number of copies, along with
          the name of the requesting organization. The form provided a direct link
          to each organization and its use of reproduction services—a more
          appropriate measure than square footage.

       •	 Supplies. Specifically, the contractor was supposed to identify
          requirements for, order, provide control over, and warehouse JNIC
          administrative supplies and spares. The cost was calculated as a
          percentage of total labor cost on the assumption that each person received
          the same supply services. The subtask language indicated work is
          primarily for the benefit of JNIC. There is no direct link to the presence
          or requests of tenants.

       •	 Facility Engineering. The Government project manager for the
          environmental task order adjusted the amount allocated to this task, which
          involved planning and design for building renovations, based on estimates
          of reimbursable costs provided by the contractor. The project manager
          assessed tenants 50 percent of labor costs based on tenants’ projected
          benefits from this service. Because these costs were based on an estimate
          for services of a general nature, not tied to a specific task or project (for
          example, remodeling of tenant space), the charge cannot be directly
          attributed to a specific tenant.

       •	 50th Space Wing Utilities. The 50th Space Wing used square footage to
          charge tenants for water and sewer. Because water and sewer costs were
          based on meter measurements, which in turn were based on actual
          amounts used, a headcount for each tenant would have provided a better
          measure of associated direct costs.

    As a result of our analysis, JNIC is crediting tenants $22,442 in FY 2007. This
    credit stems from JNIC reducing its FY 2006 “supply support” assessment to
    tenants by $0.18 per square foot, from $15.51 to $15.33. However, this
    adjustment does not fully respond to the methodological concerns raised in this
    report.


Calculation Error
    In addition to the incorrect methodology used, we noted a utility calculation error
    affecting one tenant—JFCC—resulting in an overcharge of $36,975 for utilities



                                         6

        from February 1, 2005, through January 31, 2006. The calculation error is
        summarized in Appendix B.

        As a result of our analysis, JNIC is adjusting its utility calculation to arrive at the
        same utility cost per square foot as used by the 50th Space Wing. However, the
        application of the rate to common area square footage is still not consistent with
        the requirements of DoD Instruction 4000.19, as discussed in Appendix B under
        the heading, “Utility Charges.”


Fund Augmentation
        As a consequence of JNIC collecting an excess $350,736 of revenues from
        nonreimbursable charges ($313,761) and utility miscalculation from tenants
        ($36,975); the Missile Defense Agency may have augmented its appropriation
        and committed an Antideficiency Act violation. Augmentation may have
        occurred when funds collected from tenants exceeded actual costs incurred and
        the excess funds were not refunded to the tenants or deposited in the U.S.
        Treasury, as required by 31 U.S.C. § 3302. 5

        Fund augmentation may have occurred because:

            •	 Tenant charges were based on an estimated task order cost for future
               service. The contractor provided estimated costs for each task order
               element. JNIC subsequently adjusted these costs, included the award fee,
               derived a cost per square foot, and billed tenants by requesting
               reimbursements in advance.

            •	 JNIC did not determine whether it had collected excess funds from tenants
               by comparing collections with actual expenses or costs and then returning
               these excess funds to either the tenants or the Treasury.

            •	 The funds collected from tenants were used to offset the estimated costs of
               the environmental task order, freeing Missile Defense Agency funds for
               other purposes.

        Any and all funds received that cannot be identified as incremental direct costs
        associated with tenants are an apparent fund augmentation in violation of
        31 U.S.C. § 3302, and may be an Antideficiency Act violation according to
        31 U.S.C. § 1341 a. 1. (A.). The Missile Defense Agency should determine
        whether an augmentation of its funding occurred and either refund excess funds to
        the tenants or deposit these funds to the Treasury as required under
        31 U.S.C § 3302. The Missile Defense Agency should determine whether any


5
  United States Code (U.S.C.). 31 U.S.C. § 3302 (b) “Custodians of Money,” January 19, 2004, provides
legal requirements for custodians of money: “An official or agent of the Government receiving money for
the Government from any source shall deposit the money in the Treasury as soon as practicable without
deduction for any charge or claim.”



                                                   7

   Antideficiency Act violations have occurred, and if so, the Missile Defense
   Agency should report the violations.

Recommendations, Management Comments, and
Audit Response
   Revised Recommendation. As a result of management comments, we revised
   draft Recommendation 1. to include the Comptroller General decision to allow
   agencies to refund excess funds to tenants or deposit the funds to the Treasury as
   required by 31 U.S.C § 3302 (b).

   1. We recommend the Director, Missile Defense Agency review prior fiscal
   year cost allocations to tenants, identify fund augmentations when they
   occurred, and either refund excess funds to the tenants per Comptroller
   General decision or deposit the funds to the Treasury as required by
   31 United States Code § 3302 (b). If the Missile Defense Agency determines
   that Antideficiency Act violations have occurred, the Missile Defense Agency
   should report these as required by 31 U.S.C. § 1341 (a)(1)(A).

   Management Comments. The Executive Director, Missile Defense Agency
   (MDA) partially concurred with the recommendation, agreeing to review its
   methods of calculating the cost allocations charged to the tenants. However, the
   Executive Director, MDA did not concur that the cost allocation used by JNIC
   resulted in fund augmentation or a potential Antideficiency Act violation. She
   stated DoD Instruction 4000.19 requires interservice support costs to be
   incremental direct costs, measurable, and attributable to the receiver. She stated
   that the JNIC services are provided by its prime contractor; the tenants are a large
   proportion of the infrastructure and other costs of this contract; and excess
   support provided for the benefit of those tenants is measurable and directly
   attributable to the receivers. She added that the word “measurable” does not
   always mean an exact number and that it can mean estimating or determining
   based on some criteria. Furthermore, nothing in the instruction or law requires
   exact cost figures, and she maintained that MDA can base its charges to the
   tenants on estimates.

   The Executive Director further stated that MDA was operating under the statutory
   authority of the Economy Act, 31 U.S.C. § 1535 versus the 31 U.S.C. § 3302
   cited in the report. She stated that the Economy Act allows for estimates, thus
   statutory authority exists to make and collect charges from tenants. She also
   stated that 31 U.S.C. § 1535 (b) allows for adjustments of amounts paid by
   tenants as agreed by the heads of agencies on the basis of actual costs. She said
   the Economy Act encourages the return of excess of funds, but does not require it
   unless agreed upon by the agencies. She indicated that the MDA and Air Force
   did not desire to alter support agreement provisions after the fact; in turn, no legal
   basis exists to require additional reimbursement or refunding for past years’
   charges. Furthermore, MDA did not directly benefit from any excess charges and
   any identified differences in estimated and actual costs resulted in credits to future
   tenant costs.



                                         8

        Audit Response. Comments from the Executive Director, MDA, are not
        responsive. The Executive Director stated that, under the Economy Act, cost
        estimates are a sufficient basis for allocating and assessing tenant charges. We
        agree estimates may be used to assess costs but not to the exclusion of actual cost
        data when that is available. The contractor provided an estimate of task order
        costs to JNIC for the coming year. JNIC subsequently revised the data in
        calculating tenant charges per square foot. There was no subsequent capture of
        actual cost data and adjustment to tenant charges via reimbursements or
        additional collections. The contractor must have an adequate cost accounting
        system in order to segregate and record contract costs. Data pertaining to direct,
        tenant-related costs were available and were the basis for the contractor’s estimate
        of future costs. An estimate can serve as the basis for a charge to a tenant.
        However, subsequent adjustment of the estimate to reflect actual cost is implicit
        in both DoD policy and the Economy Act.

        Paragraph 4.6 of DODI 4000.19 states that interservice and intragovernmental
        support is reimbursable to the extent that provision of the specified support for a
        receiver increases the support supplier’s direct costs (that is, incremental direct
        cost). Both the Economy Act, 31 U.S.C. § 1535(b), and Paragraph 030502,
        Volume 11A, Chapter 3 of DOD Financial Management Regulation DOD
        7000.14-R state:

                Proper adjustment of amounts paid in advance shall be made as agreed to by the
                heads of the agencies or units on the basis of the actual cost of goods or services
                provided.

        MDA has not indicated that any adjustment of estimated amounts that were paid
        in advance by JNIC tenants was attempted or that any agreement was made with
        the tenants to adjust the estimated amounts paid in advance by the tenants. If
        adjustments were made to the estimates reflecting the actual costs incurred by
        JNIC in rendering services to the tenants, JNIC would be in a position to credit
        the tenant for amounts overpaid by the tenant or collect from the tenant additional
        charges when the services rendered exceeded the amount paid by the tenant. 6
        The Comptroller General noted that, under an Economy Act transaction, the
        ordering agency may advance funds to the performing agency for services, but the
        performing agency must return excess advanced funds to the ordering agency
        once actual costs of services are determined. 7 The Comptroller General has also
        indicated that any retention of amounts in excess of actual costs called for in an




6.
 See Economy Act Payments After Obligated Account is Closed, B-260993, 1996 U.S. Comp. Gen.
LEXIS 318; 96-1 Comp. Gen. Proc. Dec. P287 (June 26, 1996).

7
 See National Archives and Records Administration Records Center Revolving Fund--Advance Payments,
B-306975, 2006 U.S. Comp. Gen. LEXIS 44 (February 27, 2006).




                                                    9

          Economy Act agreement would result in an improper augmentation of
          appropriations. 8 The Comptroller General specifically stated:

                   The Economy Act requires the ordering agency to pay the performing agency its
                   actual cost of performance. When an agreement is funded by advances, the
                   advances are usually deposited to a special fund against which the performing
                   agency charges costs and makes payments to carry out the agreement. Any
                   advances remaining after the performing agency reconciles its actual costs must
                   be returned to the ordering agency. 9

          The Comptroller General separately determined that Economy Act transactions
          involving funding and provision of services and facilities from one agency
          Component to another involve the application of standards for cost determination
          similar to that of a DoD agency to other Government departments and agencies.
          Therefore, 31 U.S.C. § 3302 (b) is applicable to the MDA support agreements.

          Furthermore, the Comptroller General has mandated that one performing agency
          refund overpayments to an ordering agency (amounts advanced in excess of the
          actual cost incurred) under an Economy Act agreement even though 12 years had
          elapsed since the completion of the Economy Act agreement. 10

          We believe funds were collected for services that were not of direct benefit to or
          associated with tenants. The fund augmentation may have also occurred in prior
          years, because MDA used a similar cost methodology for tenant costs. As such,
          refunds or credits to tenants may not obviate existing legal requirements for fund
          augmentation and Antideficiency Act violations.

          2) We recommend the Deputy Director, Joint National Integration Center
          implement DoD Instruction 4000.19, “Interservice and Intergovernmental
          Support” by taking the following actions.

                 a. Charge tenants only for incremental direct costs attributable to
          tenant presence and use of services.

                b. Use a more appropriate and accurate methodology to determine
          reimbursable charges.

                 c. Review the utility cost calculation error and the nonreimbursable
          cost charges, identify any subsequent adjustments, and adjust tenant charges
          accordingly.



8
    See Bureau of Land Management--Disposition of Water Resources Council Appropriations Advanced
    Pursuant to the Economy Act, B-250411, 72 Comp. Gen. 120; 1993 U.S. Comp. Gen. LEXIS 478 (March
    1, 1993).
9
    See Economy Act Payments After Obligated Account is Closed, B-260993, 1996 U.S. Comp. Gen.
    LEXIS 318; 96-1 Comp. Gen. Proc. Dec. P287 (June 26, 1996).
10
     See Bureau of Land Management--Disposition of Water Resources Council Appropriations Advanced
    Pursuant to the Economy Act, B-250411, 72 Comp. Gen. 120; 1993 U.S. Comp. Gen. LEXIS 478 (March
    1, 1993).



                                                    10 

Management Comments. The Executive Director, MDA, concurred with
recommendation 2.a. and partially concurred with recommendations 2.b and c.
The Executive Director stated that the cost methodology used by JNIC is
consistent with DoD guidance and all reimbursable costs identified in the Host
Tenant Support Agreements are considered incremental direct costs. She stated
the task order element “administration costs” includes acquisition and contract
administration services directly attributable to tenants. She added that the award
fee is associated with labor costs benefiting tenants and that the tenants have an
opportunity to evaluate the contractor’s performance and have input to the Award
Fee Review Board. However, she did indicate the methodology will be revised
for certain task elements to more accurately capture incremental direct costs.

The Executive Director says that MDA will process a credit to the JFCC-IMD in
the amount of $1,289 based on actual utility use in FY06 by March 30, 2007. She
added MDA will work closely with the 50th Space Wing to ensure proper capture
and charges for utility costs. However, she stated the tenants are a large part of
the infrastructure and other costs of the contract, and the excess of support
provided for the benefit of those tenants is measurable and directly attributable to
the receivers, including common space.

Audit Response. Although the Executive Director, MDA concurred or partially
concurred with the recommendations, we do not consider the comments
responsive. JNIC’s cost methodology is not consistent with DoD guidance
because officials did not attempt to determine if funds were collected in excess of
actual direct costs. The tasks associated with “Administration,” as defined in the
task order, would be performed regardless of tenant presence. Tenant costs based
on an award fee may be overstated or may not even be valid based on task order
elements with no direct link to tenant-specific services. Without such a link, an
award fee does not inherently indicate an incremental direct cost attributable to
tenant presence or use of services. MDA should clearly demonstrate a direct tie
to tenant presence or services on tenants’ behalf to allocate such costs for
reimbursement. MDA also stated tenants have input into the contractor’s
performance during the award fee period. However, the full amount (12 percent)
is estimated as awarded, with no subsequent adjustment for what is actually
awarded. Without a process in place to refund the difference between the
estimated and actual award fee costs determined by the Award Fee Review Board,
the tenants may be overcharged by an award fee amount they feel is unwarranted.

JNIC had previously miscalculated the cost per square foot for utilities charged to
JFCC-IMD. In the process of our audit, JNIC officials concluded that the
calculation of the cost per square foot for utilities needed to be changed. After
they concluded the calculation was incorrect, they issued a credit. Although the
JNIC changed the cost per square foot, the new calculation included an indirect
cost of common space for a higher overall square footage allocation to
JFCC-IMD. JNIC includes the common area infrastructure as part of JFCC-IMD
square footage. The DoD Instruction 4000.19 states that the use of common-use
infrastructure is typically non-reimbursable. We believe JNIC should not include
the common-use infrastructure as part of JFCC-IMD square footage when
multiplying it by the cost per square foot to arrive at the total utility cost to JFCC-
IMD.



                                      11 

We request that the Executive Director, MDA reconsider MDA’s position on the
recommendation, and provide final comments to the report by July 23, 2007.

3. We recommend the Commander, 50th Space Wing adjust the cost
allocation for sewer and water to reflect actual tenant usage.

Management Comments. The Commander, 50th Space Wing did not comment
on a draft of this report. Therefore, we request that the Commander provide
comments on the final report.




                                  12 

Appendix A. Scope and Methodology
    We performed this audit at Schriever Air Force Base, Colorado, from November
    2005 through March 2006 in accordance with generally accepted government
    auditing standards.

    Our original audit scope was to determine whether appropriate charges and
    methodologies were being used to assess costs to tenants. However, because of
    the issues raised at Schriever Air Force Base, we limited our scope to only that
    installation. Our focus was on the methodologies the 50th Space Wing and JNIC
    used to assess charges to tenants. The scope of our audit was further limited in
    that we did not review JNIC’s management control program.

    We reviewed DoD Instruction 4000.19, “Interservice and Intergovernmental
    Support.” We examined JNIC support costs and the methodology for calculating
    charges to its tenants. To ensure an accurate understanding of the methodology,
    we requested that JNIC review our summary and add pertinent comments and
    revisions. We reviewed the process Northrop Grumman used to develop the task
    order cost proposal. This review included the relevant contract documents and
    task order requirements. In addition, we verified the nature and amount of
    charges to JNIC by the 50th Space Wing under the support agreement. To obtain
    their understanding of the cost allocation methodology and its rationale and
    components, we interviewed all tenants in buildings 720 and 730; JNIC; Northrop
    Grumman Missile Systems; Lockheed Martin; and numerous offices of the 50th
    Space Wing—Security, Real Property, Civil Engineering, Support Agreement
    Manager, and Financial Management.

    Use of Computer-Processed Data. We did not rely on computer-processed data
    to perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    does not identify a high-risk area.


Prior Coverage
    During the last 5 years, no audits have been conducted of Air Force host and
    tenant support agreements between JNIC and Schriever Air Force Base.




                                        13 

Appendix B. Overcharges
           JNIC overcharged tenants $350,736 as a result of including nonreimbursable
           costs ($313,761) and making an error in calculating utility charges ($36,975).
           The $313,761 overcharge resulted because JNIC included nonreimbursable
           costs—administration costs incurred under the first task and award fees for the
           entire task order.

                         Table B-1. Calculation of Tenant Overpayment

           Tenant reimbursable costs (non-storage)                                 Amounts
Environmental task order                                                               $4,874,250
  Less:      Administration                                                  $730,437
             Award fee                                                        450,765
Facility support cost                                                                  $3,693,048
  Add:       Other                                                           $398,289
Total reimbursable occupancy costs                                                     $4,091,337

Operational square footage                                                    339,835

Reimbursable cost per square foot ($4,091,337 / 339,835)                       $12.04 1
Tenant square footage (nonstorage)                                              88,717
 Tenant (nonstorage) reimbursable costs ($12.04 X 88,717)                                  $1,068,080

            Tenant reimbursable costs (storage)
Reimbursable costs per square foot 2                                            $7.851
Storage square footage                                                           1,799
 Tenant (storage) reimbursable costs ($7.85 X 1,799)                                       $    14,129

                    Tenant overpayment
Costs reimbursable from tenants                                                            $1,395,970
  Less:     Tenant (nonstorage) reimbursable costs                         $1,068,080
           Tenant (storage) reimbursable costs                                 14,129
Tenant reimbursable costs                                                                  $1,082,210
 Total overpayment by tenants                                                              $ 313,761




1
    Reimbursable costs per square foot are rounded.
2
    No custodial, reproduction, JNIC communications, or 50th Space Wing support agreement costs were
    included in the storage reimbursable costs per square foot.



                                                      14
Utility Charges
            As a result of a calculation error, JNIC overcharged one of its tenants, JFCC, by
            $36,975. The calculation error resulted when JNIC improperly excluded square
            footage associated with common space in the calculation of utility costs per
            square foot. The miscalculation resulted in an erroneous cost of $5.00 per square
            foot, as opposed to $2.65.

            Utility costs are determined by meter readings. Costs are apportioned by the 50th
            Space Wing based on square footage as a cost to JNIC. Prior to assessing these
            utility costs to JFCC, JNIC recalculated the costs by excluding common area
            square footage, deducting Air Force tenant square footage, and dividing the full
            utility cost by the remaining square footage, yielding a revised rate of $5.00 per
            square foot.

            However, the 50th Space Wing previously calculated the cost of utilities for both
            buildings by combining mission and common area square footage. From this
            total, square footage specific to Air Force tenants was excluded, resulting in an
            allocation of $2.65 per square foot.

            JNIC removed common area square footage to avoid inclusion in the utilities
            calculation but did not reduce total square footage by a similar amount. This
            approach is consistent with DoD Instruction 4000.19, which specifies that costs
            for common-use infrastructure are typically non-reimbursable. Thus, the rate is
            artificially inflated by $2.35, resulting in an overcharge of $36,975. Table B-2
            shows details of the utility miscalculation.

                                   Table B-2. Utility Calculation Error

            Utilities                       JNIC calculation          Correct calculation        Difference
Total utility cost                                $1,324,563                  $1,324,563
Utility square footage                              263,989 1                   499,835 2                235,846
Utility cost per square foot 3                   $      5.00 4                $      2.65               $ 2 .35
JFCC square footage                                    15,734                      15,734
JFCC utility cost 5                               $ 78,670                    $ 41,695                   $36,975




1
    JNIC and JFCC mission area. 

2
    Total mission and common area. 

3
    Total utility cost divide by Utility square footage. 

4
    The Utility cost per square foot should be $5.02, but JNIC used $5.00 per square foot for their 

    calculation.
5
    Utility cost per square foot multiplied by JFCC square footage.



                                                             15 

Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, 50th Space Wing Air Force Space Command

Other Defense Organizations
Director, Missile Defense Agency
Deputy Director, Joint National Integration Center

Non-Defense Federal Organization
Office of Management and Budget




                                           16 

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
 Senate Committee on Appropriations
 Senate Subcommittee on Defense, Committee on Appropriations
 Senate Committee on Armed Services
 Senate Committee on Homeland Security and Governmental Affairs
 House Committee on Appropriations
 House Subcommittee on Defense, Committee on Appropriations
 House Committee on Armed Services
 House Committee on Oversight and Government Reform
 House Subcommittee on Government Management, Organization, and Procurement,
   Committee on Oversight and Government Reform

 House Subcommittee on National Security and Foreign Affairs, Committee on 

   Oversight and Government Reform

 House Subcommittee on Technology, Information Policy, Intergovernmental 

   Relations, and the Census, Committee on Government Reform





                                     17 

Missile Defense Agency Comments 



                                   DEPARTMENT OF DEFENSE
                                    MISSILE DEFENSE AGENCY
                                     7100 DEFENSE PENTAGON
                                   WASHINGTON, DC 20301-7100
                                                                             MAR 1 8 2007


        MEMORANDUM FOR PROGRAM DIRECTOR, DEFENSE FINANCIAL AUDITING
                         SERVICE

        SUBJECT: Draft of a Proposed Report on Air Force Host and Tenant Agreements
                 Between the50thSpace Wing, the Joint National Integration Center, and
                 Tenants, (Project No. D2006-D000FD-0064.000), February 28,2007

        Reference:   DoD Inspector General Memorandum. Subject: "Report on Air Force Host
                     and Tenant Agreements Between the50thSpace Wing, the Joint National
                     Integration Center, and Tenants, February 28, 2007

                The Missile Defense Agency (MDA) appreciates the opportunity to review and
        provide comments on the subject report We strongly disagree with the audit conclusion
        that the Agency may have improperly augmented its appropriation or that there is a
        potential Antideficiency Act violation. MDA is compliant with the guidance of DoD[
        4000.19 and the provisions of the Economy Act that authorize support to Joint National
        Integration Center (JNIC) tenants, The JNIC employs an appropriate and reasonable
        methodology to assess reimbursable costs for tenant support. MDA does agree, however,
        that the JNIC maybe able to improve its methodology for calculating reimbursable costs
        charged to tenants for mail distribution, reproduction services, supplies and facility
        engineering.

                The JNIC developed and applied methodology consistent with DoDI 4000.19,
        Interservice and Intergovernmental Support, specifically the guidance cited in Paragraph
        4.6., regarding reimbursable costs under support agreements. In accordance with the
        guidance in this paragraph, the JNIC allocated incremental direct costs to each tenant
        based on resource consumption that would otherwise not have been incurred by the JNIC.
        The JNIC executes tenant support through a prime contract and uses this vehicle as a
        determinant to assess reimbursable support costs, All reimbursable costs identified in the
        Host Tenant Support Agreements are considered Incremental Direct Costs.

                DoD] 4000.19, Paragraph E6.1.3, states that "Incremental direct costs should be
        associated with units of support (e.g., $5 per square foot) to simplify calculation of
        reimbursable charges and to use practical types of units to define the required support."
        The JNIC"primarilyused this methodology la assess reimbursable costs based on the
        percentage of square feet occupied by each tenant. The JNIC methodology minimizes the
        effort and associated increased costs required to collect and report reimbursement by-
        using the simplified calculations and practical methods prescribed in DoDI 4000.19.




                                                  19 

       The JNIC, as hostfortenant support, strives to provide cost efficient support
through open communications to its tenants:. The methodology used bytheJNIC for
determiningreimbursablecosts for services is coordinated to gain concurrence of each
tenant activity prior to implementation. The JNIC has employed prudent concepts and
procedures consistent with DoD guidance to provide equitable reimbursable costing of
services for its tenants. The attached matrix provides detailed comments indicating
MDA's concurrence/non-concurrence with each recommendation, actions taken and
future planned actions.

       My point of contact for this action is Mr. MirzaBaig,Assistant Director, Program
Liaison, at (703) 692-6538.




                                           PATRICIA SANDERS
                                           Executive Director

      Attachment 

      AS stated 





                                          20 

                                                                                                                                                   Final Report
                                                                                                                                                    Reference
          Missile Defense Agency C o m m e n t s                     on DoD IGDraftReporton"Air Force Host and T e n a n t                      Agreements Between
                                the50thSpaceWing,theJointNational Integration Center, and Tenants",
                                               Project            No. D-2006-D000FD-0064.000

     DOD IG Recommendation                        MDA Comments Provided i nResponsetothe D r a f t Report
      1. The Director, Missile Defense Agencyreviewprior Partially Concur
      fiscal year cost allocations to tenants, identify fund
      augmentations when they occurred, anddepositthe                 Actions Taken. TheJNIChas reviewed the fiscal year cost                 Revised
      funds totheTreasury as required by 31 U n i t e d States       allocations to tenants and docs not find augmentations as
      Code 3302 (b). I f the Missile Defense Agency determines indicated in the reportfindings.Even if there had been an
      that Antideficiency                                 Act violations h a v e occurred, the       overcharge augmentation, however, the remedy would be a refund
      MissileDefenseAgencyshouldreport these as required to the serviced agency, not a deposit to the Treasury. MDA offers
      by 31 U . S . C .           1341         (a)(1)(A).                             the following explanation:

                                                                   DoD Instruction4000.19 restricts reimbursement of interservice
                                                                   support to increases in the support suppliers direct costs (i.e.
                                                                   incremental direct cost). Costs associated with common use
                                                                   infrastructure are non-reimbursable except for support provided
                                                                   solely for the benefit of one or more tenants. Under the
21                                                                 Instruction such costs must be measurable and directly
                                                                   attributable to the receiver. T h e word measurable has various
                                                                   meanings, but one of those is to estimate or appraise by a
                                                                   criterion. Thus, the word measurable does not always mean an
                                                                   exact number it can mean estimating or determining based on
                                                                   some criteria. That is precisely what MDA did at the JNIC to
                                                                   determine charges to be paid by tenants for services provided to
                                                                   them.

                                                                   MDAJNICservices are mostly provided by its prime contractor.
                                                                   Northrop-Grumman under a services                          contract under which
                                                                   services are provided by task or delivery order based on the
                                                                   amount of services required. In this instance, as tenants are a
                                                                   large proportion of the infrastructure and other costs of this
                                                                   contract (approximately 31% of the personnel residing in the
                                                                   JNIC            facilities are tenants), excess support provided for the
                                                                   benefit of those tenants are measurable and directly attributable to
                                                                   the receivers, They may not be measurable to an exact dollar
                                                                   figure             because                   y o u cannot divide up the precise number of bodies
                                                                                                                      Attachment:                              1 of 9
Missile Defense AgencyCommentson DoD IG Draft Report on "Air Force Host and Tenant Agreements Between
                 the     50th Space Wing, the Joint National IntegrationCenter,and Tenants",
                                 Project No. D-2006-D000FD-0064.000
                                                  provided by Northrop-Grumman                                               necessary to do a particular job,
                                                  but they         are measurable as compared to the amount of services
                                                  being provided by the contractor that would not have been
                                                  provided had the tenants not been in the         facilities. Thus, various
                                                  methods (including square footage of useable space) can be and
                                                  have been used over the years to measure these costs and while
                                                  differences of opinionmayresult as to w h i c h measure is
                                                  ultimately the most accurate, there can be no dispute that a l l such
                                                  measures were done i n good faith and with a reasonable attempt
                                                  to document the best possible estimate for those costs. We also
                                                  believe they were accomplished consistent with the law and
                                                  regulations applicable to such activities.

                                                  Nothing in the DoD Instruction or in the law requires that exact
                                                  cost figures be determined and refunded for inter-agency service
                                                  support in accordance with some later defined cost standard,
                                                  except where the funds received have not otherwise been utilized,
                                                  in which case they should be returned (DoDI 4000.19, paragraph
                                                  4.6.2). Furthermore, in accordance with Paragraph E.6.1.3 DoDI
                                                  4000.19 Incremental direct costs should be associated w i t h units
                                                  of support (e.g., $5 per square foot) to simplify calculation of
                                                  reimbursement charges and to use practical types of units to
                                                  define the required support. Indeed, under the DoD Financial
                                                  Management Regulation, Volume 11 A. Chapter I, paragraph
                                                  10203.E,                     "Contracts costs incurred for contracts awarded as part
                                                  of a reimbursable agreement shall be billed to the benefiting
                                                  organization." Because of the nature of the MDA's                     contract with
                                                  Northrop-Grumman                                               a determination ofthecontract's incremental
                                                  cost increases were based on good faith and rational estimates and
                                                  billed to the benefiting organization consistent with this and other
                                                  DoD Regulations.

                                                  The fact that in hindsightsomeother method might have been
                                                  utilized to determine what some may perceive as a better method
                                                  to determine actual costs, does not translate the original actions
                                                                                                    Attachment: 2 of 9
     Missile Defense AgencyCommentson DoD IG Draft           Reporton"Air Force Host andTenantAgreements Between
                      the50thSpaceWing,the Joint National Integration Center, and Tenants",
                                    Project No.                                          D-2006-D000FD-0064.000
                                                     into an agency; augmentation.

                                                     The         Government Accountability Office (GAO), in its Principle of
                                                     Appropriation Law,Chapter6,states that: "As a general
                                                     proposition, an agency maynotaugment                      its appropriations from
                                                     outside sources without specific statutory authority." As stated
                                                     elsewhere in this response to theIGDraft, MDA did not calculate
                                                     tenant charges in an unreasonable manner or inconsistent with
                                                     DoD regulations in any instance dealing with its tenants at the
                                                     JNIC. Thus, it is MDA's view that no augmentation issues exist
                                                     or existed in this situation.

                                                     But, even ifanaugmentation question did exist, a review of the
                                                     augmentation rules is necessary to determine if a violation may
                                                     have occurred The statutory authority cited to support an
                                                     allegation of augmentation i n this instance is 31USC3302. That
23                                                   statute applies to situations where the government receives money
                                                     from an outside source and no other statutory authority' allows it
                                                     to use the funds received. Normally this has to do with funds
                                                     received from private or other sources for which Congress did not
                                                     contemplate                           a particular agency's benefiting from their receipt.

                                                     Specifically, the statute states at paragraph (a): "Except as:
                                                     provided by another law, an official or agent of the U n i t e d States
                                                     Government having custody or possession of public money shall
                                                     keep the money safe without­

                                                             ( 1 ) lending the money
                                                             ( 2 ) using the money
                                                             (3) depositing the money in a bank: and
                                                             (4) exchanging the money                   for other amounts."

                                                     First, 31USC3302 is inapplicabletothis             situation.                   There was,
                                                     indeed, specific statutory authority provided by another law for
                                                     MDA to receive and"use"these funds. In the event of an
                                                                                                          Attachment:                             3 of 9
         Missile Defense AgencyCommentson DoD IG Draft Report on "Air Force HostandTenant Agreements Between
                          the      50th Space Wing, the Joint National IntegrationCenter,and Tenants",
                                          Project No. D-2006-D000FD-0064.000
                                                          overcharge, MDA believes the appropriate remedy would be a
                                                          refund or credit to thepayingagency, not a deposit to the
                                                          Treasury (See again,GAOPrinciples of Appropriation Law,
                                                          chapter 6).

                                                          I n this case the agency ( M D A ) was operating under the statutory
                                                          authority of the Economy Act, 31 USC 1535,receivingO&M
                                                          funds via MIPR from the Air Force to purchase services on their
                                                          behalf via direct fund cites placed on MDA service contracts.
                                                          The Economy Act specifically provides that orders for services
                                                          may be placed with other agencies, and that estimated or actual
                                                          cost as determined by the agencyfillingthe order can be used to
                                                          determine the costs to be charged to the requestor. Thus,
                                                          estimated costs are statutorily authorized to be utilized in these
                                                          instances. Additionalstatutoryauthority, 31U.S.C.l536                and 10
                                                          U.S.C. 2205 authorizes the deposit of such funds to Agency
24                                                        appropriations.

                                                          Furthermore,31U.S.C.1535(b)                      states in part that "Proper
                                                          adjustments of amounts paid i n advance shall be made as agreed
                                                          to by the heads of the agencies or units on the basis of the actual
                                                          cost of goods or services provided." The Act contemplates the
                                                          use of estimates and advance payments, and, while it may
                                                          encourage it, does not mandate return of excess funds if any exist,
                                                          unless otherwise agreed upon by the two agencies. 'this statute
                                                          recognizes that someflexibilityis necessary to encourage cost
                                                          savings via services being provided by other agencies rather than
                                                          having to duplicate costs and expenses by using other tools and
                                                          that        flexible language is included in the FMR (Vol. 11 A, Ch. 3.
                                                          para030502).In this instance the tenants                   would have had to
                                                          obtain significant funding to buy, lease, or build other facilities
                                                          and contract for other support services, had the JNIC facilities not
                                                          been available.

     Economy                                                 Act orders w i t h i n DoD typically are executed through
                                                                                                             Attachment:                 4 of   9
     Missile Defense Agency C o m m e n t s               on DoDIGDraftReporton"Air Force Host andTenantAgreements Between
                           the50thSpaceWing,theJointNational Integration Center, and Tenants",
                                         Project No.                                        D-2006-D000FD-0064.000
                                                         MIPR's.                    Additionally, the     Regulation provides that written
                                                         determinations                               under the Economy Act are not required, except
                                                         via the DD Form 1144, ISSA Agreements. JNIC utilized both the
                                                         MIPR and the FORM 1144 processes to implement the support
                                                         services orders to the Air Force.

                                                         The JNIC did not have an agreement in its ISSAs                      to adjust t h e
                                                         estimates to later determined actuals, because to do so would have
                                                         been impractical: it was administratively cumbersome, difficult
                                                         to determine, and, due to the cost plus award fee nature of its
                                                         contract w i t h Northrop-Grumman,                                                  probably not even possible for
                                                         many               years-until contract closeout when final labor and other
                                                         costs are verified.

                                                         In addition, due to the difficulty of calculating exact costs for the
                                                         services being provided, and the understanding and agreement (its
25                                                       a result of discussions each year between the parties regarding the
                                                         estimated costs to becharged-generallythe previous years'
                                                         adjustedfiguresplus contractually mandated inflation type cost
                                                         increases for the upcoming year), the A i r Force and the MDA did
                                                         not desire or need to enter into provisions re-opening the support
                                                         agreements after the fact. Because they did not have re-opening
                                                         provisions, any possiblelaterdeterminations of other methods to
                                                         calculate more accurate determinations of over or under charges,
                                                         did not, by law, require a reimbursement or additional bill to the
                                                         serviced organization. They might suggest changes for future
                                                         billings, but not for past ones.

                                                         Furthermore, MDA did not directly benefitfromany subsequently
                                                         determined better methods to calculate these costs since the funds
                                                         were directly placed on the contract and expended for the services
                                                         provided to the tenants. MDA did not buy or build anything for
                                                         its own benefit with these funds. And. in those instances where
                                                         differences in estimates and actuals were identified, credit was
                                                         given to the tenant in subsequent years. Thus, the question is not
                                                                                                            Attachment: 5 of 9
         Missile Defense AgencyCommentsonDoDIG Draft Report on "Air Force HostandTenant Agreements Between
                               the        50th Space Wing, the Joint National Integration Center, and Tenants",
                                                 Project No. D-2006-D000FD-0064.000
                                                                      one of augmentation but should be the reasonableness of the
                                                                      government's calculations of estimated costs. If there were other
                                                                      or even better ways to calculate the estimated costs, MDA can
                                                                      revisit its methods ofcalculatingthose costs, and we have agreed
                                                                      to do that, but that       does not translate                into an augmentation or
                                                                      potential Anti-Deficiency Act violation.

                                                                      I n view oftheEconomyAct authority, the appropriate and
                                                                      reasonable implementation of it by theJNICand the AF, no
                                                                      improper Fund Augmentation occurred.


     2. The Deputy Director, Joint National Integration                  Concur with Comment
     Center implement DoD Instruction 4000.19,
     "Interservice andIntergovernmentalSupport" by taking                               TheJNICfully complies with the provisions of DoDI-4000.19.
     the             following actions:                                   All reimbursable costs identified in the I lost Tenant Support
26                                             Agreements are Incremental Direct Cost. The JNIC executes
     •A. C h a r g e tenants only for incrementald i r e c tcosts         tenant support through a prime contract and uses this vehicle as a
     atttributable                             to t e n a n t presence and use of services.                             determinant to assess reimbursable support cost IAW DoDI
                                                                          4000.19. para 4.1. IAW DoDI 4000.19, para E2.1.5 'Incremental
                                                                          Direct Cost is the cost of resources directly consumed by an
                                                                          individual activity that would not have been consumed if the
                                                                          individual activity were not performed. A cost that is specifically
                                                                          identified with a single            cost object."" The prime contract                 used for
                                                                          reimbursement calculation is for "Facility Support" which
                                                                          includes the disputed categories of:
                                                                            -	 Task Order Administration (Ref DoDI 4000.19, para
                                                                                E6.1.4.42, Purchasing and Contracting Services). litis
                                                                                reimbursabletaskingincludes cost associated with
                                                                                acquisition and contract administration services. Due to the
                                                                                volume of tenant population ( 3 1 % )             and space allocated
                                                                                (26%)              of the JNIC's               total; costs associated with Task Order
                                                                                Administration is directly attributable to tenant presence and
                                                                                use of services.
                                                                            -	 Award Fee: Award fee is calculated at12%of labor costs.
                                                                                                                             Attachment: 6 of)
         Missile Defense Agency C o m m e n t s         onDoDIG.DraftReporton"Air ForceHostandTenantAgreements Between
                            the50thSpaceWing,theJointNationalIntegrationCenter, and Tenants",
                                                Project   No. D000FD-0064.000
                                                                      Labor costs that          are negotiated for each task order directly
                                                                      support the respective tenant. Each tenant receives a benefit
                                                                      from           these labor hours. Therefore, we disagree that award
                                                                      fees are not always tied to a tenant-specifica c t i v i t yor that
                                                                      award fees associated with subtasks are not directly linked
                                                                      to tenant service needs. We also disagree that tenants
                                                                      cannot control or influence the award fee costs. The award
                                                                      fee process provides for subjective evaluation of a
                                                                      contractor's performance and JNIC program managers and
                                                                      tenants have equal opportunitytoprovide input on this
                                                                      evaluation through the Award Fee Review Board. While the
                                                                      Fee Determining Official exercises discretion in making the
                                                                      overall award fee decision, it is based on the Award Fee
                                                                      Review Board recommendation. This practice is consistent
                                                                      across all task order activity under the contract. Finally, we
                                                                      disagree that          tenants do not benefit directly from award fee
27                                                         costs. Fee is a standard and allowable component of any
                                                                      cost reimbursable                              contract. At the JNIC, we utilize an
                                                                      award feearrangementto incentivize                                  the contractor to
                                                                      perform and deliver quality service. As previously stated.
                                                                      award fee is calculated based on labor costs. Since tenants
                                                                      directly benefit from these labor costs, we believe that
                                                                      award fee is appropriate.

     2h.     U s e a more appropriate and accuratemethodologyto Partially Concur
     determine reimbursable charges.
                                                            The         methodology the JNIC             usedforthe calculation of
                                                            reimbursable charges is compliant withDoDI4000.19, pant
                                                            E6.1.3. Incremental directcostsare associated with units of
                                                            support to simplify                calculationofreimbursement charges. The
                                                            cost methodology used to determine thebasisof reimbursement
                                                            and the quantity                of support provided is furnished to the tenant in a
                                                            timely (annually )and cooperative manner. The methodologies
                                                            arc jointly reviewed for appropriateness and accuracy. After the
                                                            methodologies and costs arc agreed upon, the Support Agreement
                                                                                                                    Attachment:                               7 of 9
           Missile Defense Agency Comments on DoD IG Draft           Report on "Air Force Host andTenantAgreements Between 

                              the    50th Space Wing, the Joint National Integration Center, and Tenants", 

                                              Project No. D-2006-D000FD-0064.000 

                                                                      is signed by both parties

                                                                      Actions Planned: The JNIC will work in cooperation with the
                                                                      tenants                to improve the methodology used to ascertain
                                                                      reimbursement costs associated with mail distribution,
                                                                      reproduction services, supplies,and facility engineering.
                                                                      Examples of cost calculation improvements include: Transferring
                                                                      service to the Tenant specific contract vehicle, and accessing cost
                                                                      per unit basis. Methodology improvements that could more
                                                                      precisely captureincrementaldirect cost would most likely drive
                                                                      additional costs in tracking and reporting. Coordination to be
                                                                      completed by October 2007.

       2c. Review the utility cost calculation errorandthe         Partially Concur
       nonreimbursable                                   cost charges, identify any subsequent
       adjustments, and         adjust tenant            charges                 accordingly.. The JNIC             non-concurswiththe allegation of a cost calculation
                                                                   error. The estimated utility costs charged to the JFCC-IMD was




28 

                                                                   $78,670 and the actual utility costs (as calculated by the 50th SW
                                                                   on9Mar 07) is 76,122.79.                          TheJNIChas already provided a
                                                                   credit to the JFCC-IMD of $1,259 on 20 Sep 06 on projected
                                                                   estimates.

                                                                      TheJNICnon-concurs that Tenants were charged for
                                                                      nonreimbursable costs. The assumption that the JNIC Tenants
                                                                      have little impact on the common use infrastructure and is
                                                                      therefore nonreimbursable is incorrect MDA J N I C                   services are
                                                                      mostly provided by its prime contractor, Northrop-Grumman
                                                                      under a services contract under which services are provided by
                                                                      task or delivery order based on t h e amount                     of services required.
                                                                      I n this instance, as tenants are a large proportion of the
                                                                      infrastructure                               and other costs of this contract (approximately 3 1 %
                                                                      ofthepersonnel residing in theJNICfacilities are tenants), excess
                                                                      support provided for the benefit of those tenants arc measurable
                                                                      and directly attributable to the receivers.

                                                                                                                          Attachment:                                8 of   9
       Missile Defense Agency Comments on DoD IG Draft Report on "Air ForceHostandTenant Agreements Between
                          the 50"' Space Wing, the Joint National Integration Center, and Tenants",
                                           Project No. D-2006-D000FD-0064.000
                                                             Actions taken/Planed: 1) The JNIC             will process a credit to the
                                                             JFCC-IMD                          in the amount of $1,289 based on the actual utility
                                                             usage in FY06 by 30 Mar 07. 2) The JNIC              will work closely with
                                                             the 50th Space Wing to ensure we are properly capturing and
                                                             changing                 utility costs. Coordination to be completed by October
                                                             2007.




29 

                                                                                                              Attachment: 9 of 9
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Amy J. Frontz
Jeffrey T. Hunter
John C. Furutani
Abby R. Brakefield
Allison Tarmann
